      CONNECTICUT COUNCIL FOR
   OCCUPATIONAL SAFETY AND HEALTH
           77 Huyshope Avenue
        Hartford, Connecticut 06106


     AUDIT OF COSTS CLAIMED UNDER
OCCUPATIONAL SAFETY AND HEALTH GRANTS
              AWARDED BY

     THE U.S. DEPARTMENT OF LABOR
          GRANT NO. 46A8-HT51

              FOR THE PERIOD
 JUNE 2, 1999 THROUGH SEPTEMBER 30, 2000




            FINAL REPORT




                       Audit Report No. 21-01-004-10-101

                       Date Issued: September 28, 2001
Mr. John Henshaw
Assistant Secretary for
 Occupational Safety and Health Administration
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


                      ASSISTANT INSPECTOR GENERAL’S REPORT


We audited the costs claimed by the Connecticut Council for Occupational Safety and Health
(ConnectiCOSH) in Financial Status Reports submitted to the U.S. Department of Labor (DOL)
under its Occupational Safety and Health Grant for the periods June 2, 1999 through September
30, 1999 (Exhibit A) and October 1, 1999 through September 30, 2000 (Exhibit B). The costs
claimed in the Financial Status Reports are the responsibility of ConnectiCOSH management. Our
responsibility is to express an opinion on the accuracy of the schedule of costs claimed based on
our audit.

We conducted our audit in accordance with generally accepted auditing standards and the
standards applicable to financial audits contained in the Government Auditing Standards issued by
the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the schedule of costs claimed is free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the schedule. An audit also includes assessing the accounting
principles used and the significant estimates made by management, as well as evaluating the
overall schedule presentation. The financial presentation for the cost charges to the DOL grant
for PYs 1999 and 2000 are included as Exhibit A and Exhibit B, respectively. We believe that our
audit provides a reasonable basis for our opinion.

The schedule of costs claimed was prepared in conformity with the accounting practices
prescribed or permitted by the cost reimbursement principles of OMB Circular A-122 for
determining costs claimed under the applicable grants, which is a comprehensive basis of
accounting other than generally accepted accounting principles.

In our opinion, the schedules of costs claimed referred to above present fairly, in all material
respects, the allowable incurred costs for the DOL grant awarded to ConnectiCOSH.
Compliance

As part of obtaining reasonable assurance about whether ConnectiCOSH’s schedule of costs
claimed is free of material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and grants, noncompliance with which could have a direct and
material effect on the determination of amounts claimed. However, providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance that are
required to be reported under the Government Auditing Standards.

Internal Control

In planning and performing our audit, we considered ConnectiCOSH’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the schedule of costs claimed and not to provide assurance on the internal control
over financial reporting. Our consideration of the internal control over financial reporting would
not necessarily disclose all matters in the internal control over financial reporting that might be
material weaknesses. A material weakness is a condition in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. We noted no matters involving the internal control over
financial reporting and its operation that we consider to be a material weakness.

                       -       -      -       -       -

This report is intended solely for the information and use of the U.S. Department of Labor, and is
not intended to be used by anyone else. This restriction, however, is not intended to limit the
distribution of this report which, when issued, becomes a matter of public record.

We held an entrance conference with ConnectiCOSH officials on June 5, 2001. The last day of
our onsite fieldwork was July 19, 2001, when we held an exit conference with these same
officials. This report is dated July 19, 2001, which was the last day of our onsite audit fieldwork.



JOHN J. GETEK
Assistant Inspector General
 for Audit




                                                  2
                                               EXHIBIT A

CONNECTICUT COUNCIL FOR OCCUPATIONAL
       SAFETY AND HEALTH, INC.

           Costs Reported for the Period
     June 2, 1999 through September 30, 1999



                                     Cost
                                 Claimed
                                on SF269
       Federal Share             191,200
       Recipient Share             54,438
       Total Net Outlays        $245,638




                         3
                                                                           Schedule 1

           CONNECTICUT COUNCIL FOR OCCUPATIONAL
                  SAFETY AND HEALTH, INC.

                              Grant No. 46A8-HT51
                     Proposed and Audit Recommended Costs
                       As Reported on the General Ledger
                    June 2, 1999 Through September 30, 1999



                                     Costs Claimed            Costs Accepted
Cost Element                     by ConnectiCOSH                 by Auditors
Personnel Program                         $15,212.00              $15,212.00
Fringe Benefits                             1,760.88                1,760.88
Travel                                       180.56                   180.56
Supplies                                     815.47                   815.47
Contractual                               155,198.96              155,198.96
Other Direct Cost                          18,032.13               18,032.13
         Total                             $191,200                $191,200




                                      4
                                                EXHIBIT B

CONNECTICUT COUNCIL FOR OCCUPATIONAL
       SAFETY AND HEALTH, INC.

          Costs Reported for the Period
   October 1, 1999 through September 30, 2000




                                    Cost
                                Claimed
                               on SF269
       Federal Share             468,000
       Recipient Share           112,959
       Total Net Outlays        $580,959




                         5
                                                                        Schedule 2

           CONNECTICUT COUNCIL FOR OCCUPATIONAL
                  SAFETY AND HEALTH, INC.

                             Grant No. 46A8-HT51
                   Proposed and Audit Recommended Costs
                      As Reported on the General Ledger
                  October 1, 1999 through September 30, 2000

                                     Costs Claimed         Costs Accepted
 Cost Element                    by ConnectiCOSH              by Auditors
Personnel Program                         $52,828.32           $52,828.32
Fringe Benefits                             6,167.37             6,167.37
Travel                                       153.29                153.29
Supplies                                       37.62                37.62
Contractual                               407,432.81           407,432.81
Other Direct Cost                           1,380.59             1,380.59
   Total                                   $468,000             $468,000




                                      6
